                - .     --
                             dATIONAL SCIENCE FOUNDATIO~L
                                 ARLINGTON, VA 22230




     O f f i c e of
 Inspector G e n e r a l



 MEMORANDUM
       DATE+                                        --

       FROM :                              nvestigation Section
                                of Grant Funds from NSF Programs b

          TO:                         --
                      Case No. I9403000q
                                              \

 On March 2, 1994, the Deputy Director of the Division of
 Mathematical Sciences alerted us to an onqoinq investiqation of a
                                                of ath he ma tics at
                                            the financial officer,

a u d i t o r s and a local prosecutor verified that Ms.
 confessed to q ~ o l i c eand auditors about makin
 requests for fun s from six NSF grants. M s . 9 a d m i t t e d to
 submitting false honorarium      ent vouchers for -guestspeakers who
 never came to the school.'       auditors concluded that Ms.
 embezzled funds totaling                which was credited
 grants.     Prior to local prosecution, Ms. -greed          to full
 restitution and a supervised Diversion.
 This case is closed.
